OFFICE OF INSPECTOR GENERAL


AUDIT OF
USAID/COLOMBIA’S HUMAN
RIGHTS PROGRAM
AUDIT REPORT NO. 1-514-09-007-P
MARCH 6, 2009




SAN SALVADOR, EL SALVADOR
                          Office of Inspector General




       March 6, 2009


       MEMORANDUM

       TO:                  USAID/Colombia Mission Director, Susan Reichle

       FROM:                RIG/San Salvador, Timothy E. Cox /s/

       SUBJECT:             Audit of USAID/Colombia’s Human Rights Program (Report No. 1-514-09-
                            007-P)

       This memorandum transmits our final report on the subject audit. We have carefully
       considered your comments on the draft report in finalizing the audit report and have
       included your response in appendix II of the report.

       The report contains nine recommendations intended to improve the effectiveness and
       implementation of USAID/Colombia’s Human Rights program. Management decisions
       have been reached for all nine recommendations. M/CFO/APC will record final action
       on these recommendations when planned actions have been completed.

       I want to express my appreciation for the cooperation and courtesy extended to my staff
       during the audit.




U.S. Agency for International Development
Regional Inspector General/San Salvador
Unit, 3110; APO, AA 34023
Tel: (503) 2501-2999 Fax (503) 2228-5459
CONTENTS
Summary of Results ....................................................................................................... 1

Background ..................................................................................................................... 3

Audit Objectives ................................................................................................................ 4

Audit Findings ................................................................................................................. 5

Did USAID/Colombia’s human rights program activities achieve planned
results and what has been the impact?............................................................................. 5

     The Early Warning System Should Be More Independent.......................................... 6

     The National Action Plan for Human Rights Is Stalled ................................................ 9

     Implementation of Human Rights Contingency Plans Is Unlikely.............................. 10

Did USAID/Colombia’s reporting on its human rights program provide
stakeholders with complete and accurate information on the progress of
the program and the results achieved?........................................................................... 11

     The Program Needs a Performance Monitoring Plan ............................................... 11

     Data Reporting Needs to be Strengthened ............................................................... 13

     Mission Should Improve TraiNet Reporting .............................................................. 13

Evaluation of Management Comments ....................................................................... 16

Appendix I – Scope and Methodology ........................................................................ 17

Appendix II – Management Comments ....................................................................... 19
SUMMARY OF RESULTS
Colombia’s internal armed conflict has pitted security forces, paramilitaries, and guerrilla
groups against one another for several decades. Although violence has decreased
since 2002 and the human rights situation has improved, attacks on civilians continue.
Former paramilitaries continue to operate under new names, using threats and violence
to accomplish their objectives. The USAID human rights program in Colombia is the
largest such USAID program in the world. The main implementing partner is
Management Sciences for Development Inc. (MSD) under a $38.8 million contract
beginning in 2006 and running for up to 5 years. As of October 31, 2008 approximately
$14.9 million has been spent under the program (see page 3).

As part of the fiscal year (FY) 2009 audit plan, the Regional Inspector General/San
Salvador audited USAID/Colombia’s human rights program activities to answer the
following questions (see page 4):

•   Did USAID/Colombia’s human rights program activities achieve planned results and
    what has been the impact?

•   Did USAID/Colombia’s reporting on its human rights program provide stakeholders
    with complete and accurate information on the progress of the program and the
    results achieved?

USAID/Colombia and its implementing partner achieved planned results for one of the
six main areas of the program (strengthening the Ministry of Interior and Justice) and
partially achieved planned results for five (strengthening the Office of Human Rights in
the National Police, strengthening the Early Warning System, supporting development of
the National Action Plan for human rights, assisting at-risk communities, and
strengthening civil society organizations). Of particular note was the increase in the
number of regional analysts in the Colombian government’s Early Warning System for
human rights (EWS) from 13 in 2006 to 22 in 2007. USAID/Colombia also provided
support for the design of an overall strategy for the human rights office of the National
Police. Another success was the draft National Action Plan on human rights, agreed to
by 25 different entities within the Colombian government. Input from civil society will be
needed to advance the plan (see page 5).

USAID/Colombia can strengthen the program by (1) increasing the independence of the
EWS (page 6), (2) helping restart work on the National Action Plan (page 9), (3)
reprogramming funds from a stalled contingency plan activity for at-risk communities
(page 10), (4) finalizing and implementing a performance monitoring plan (page 11), (5)
strengthening data reporting (page 13), and (6) improving reporting under USAID’s
Training Results and Information Network (TraiNet) (page 13).

This report recommends that USAID/Colombia:

•   In coordination with its implementing partner and the Government of Colombia,
    augment the membership of the Inter-Institutional Committee for Early Warnings to
    include members from the independent oversight and control branch of the Colombia
    State, such as the National Ombudsman and the Inspector General, and charge


                                                                                          1
    them with oversight of the committee’s operations (see page 9).

•   In coordination with its implementing partner and the National Ombudsman, ensure
    that the EWS makes risk reports available to the public on a timely basis by posting
    them on the Internet and/or publishing them while keeping reasonable confidentiality
    and security needs in mind (see page 9).

•   In coordination with its implementing partner, the Government of Colombia, and the
    National Ombudsman, implement procedures for more timely and effective two-way
    communication between the Inter-Institutional Committee for Early Warnings and the
    Early Warning System (see page 9).

•   In coordination with its implementing partner and the National Ombudsman, ensure
    that the Early Warning System establishes internal timelines for preparing and
    forwarding risk reports (see page 9).

•   Exercise its influence with the Government of Colombia and civil society
    organizations to encourage them to resume work on the National Action Plan for
    human rights within the framework of the Coordination Level, while discouraging
    initiatives to narrow participation in the National Action Plan for human rights process
    (see page 10).

•   In coordination with its implementing partner, reprogram the $396,943 for the
    activities of the assistance program for at-risk communities to other efforts that will
    produce more significant results (see page 11).

•   Develop a performance management plan for the human rights program (see page
    13).

•   In conjunction with its implementing partner, develop and implement a system to
    reasonably ensure that reported information is accurate (see page 13).

•   Provide limited access to the Agency’s Training Results and Information Network
    (TraiNet) to contractors who report on training so that the initial data entry can be
    done by them before being reviewed by the appropriate USAID/Colombia staff (see
    page 15).

USAID/Colombia agreed to implement the recommendations and has developed specific
plans to address them. Management decisions have been reached on all nine
recommendations. Our evaluation of management comments is provided in the Evaluation
of Management Comments section of this report (page 16), and USAID/Colombia’s
comments in their entirety are included in appendix II.




                                                                                          2
BACKGROUND
Colombia’s internal armed conflict has pitted security forces, paramilitaries, and guerrilla
groups against one another for several decades. The conflict between government
forces and antigovernment insurgent groups and illegal paramilitary groups escalated
during the 1990s. The insurgents lack the military or popular support necessary to
overthrow the Government, and violence has been decreasing since about 2002, but
insurgents continue attacks against civilians and large swaths of the countryside are
under guerrilla influence.

In a 2008 report, Amnesty International states that there have been reductions in certain
types of human rights abuses in recent years. For example, the number of kidnappings
has fallen, from a recent high of 3,570 in 2000 to just over 520 in 2007. Similarly, the
number of conflict-related killings of civilians has fallen, from a recent high of around
4,000 in 2002 to some 1,400 in 2007. Despite the reduction of violence, there is strong
evidence that many of the so-called “former” paramilitaries continue to operate – often
under new names such as the New Generation Organization (Organización Nueva
Generación) and the Black Eagles (Águilas Negras). These groups continue to use the
threat of force and actual violence to further their economic and political objectives. 1 A
2007 mission of the Organization of American States suggested that 22 groups with
around 3,000 combatants had reemerged, led by middle-ranking paramilitary leaders
and consisting mainly of supposedly demobilized rank-and-file paramilitaries.

Members of the U.S. Congress have cited human rights concerns as a reason for their
opposition to the Colombia Free Trade Agreement. The free trade agreement is
currently pending ratification by the United States Congress.

The USAID/Colombia project is the largest USAID human rights initiative in the world.
The program is implemented by Management Sciences for Development, Inc. (MSD)
under a $38.8 million contract that runs from 2006 through 2011 (2 years with an option
for 3 additional years). As of October 31, 2008, $21.2 million has been obligated and
$14.9 million spent under the contract. Additionally, USAID entered into a $700,000
grant agreement with the United Nations Office of the High Commissioner for Human
Rights in Colombia (UN/OHCHR).

The USAID Human Rights Program provides support for the prevention of and protection
against human rights abuses, and for strengthening government and civil society
responses. Some of the main activities are:

•    Strengthening the Early Warning System (EWS) in the Office of the National
     Ombudsman

•    Strengthening the capacity of the Ministry of Interior and Justice

•    Assisting the Government of Colombia and civil society in the development of a
     National Action Plan for human rights (NAP)

1
    Amnesty International Leave Us in Peace: Targeting Civilians in Colombia’s Internal Armed
    Conflict, (2008).


                                                                                           3
•   Assisting at-risk communities in developing contingency plans for prevention of
    human rights abuses

•   Strengthening civil society organizations

•   Strengthening the Office of Human Rights in the National Police

AUDIT OBJECTIVES
As part of the fiscal year 2009 audit plan, the Regional Inspector General/San Salvador
audited USAID/Colombia’s human rights program activities to answer the following
questions:

•   Did USAID/Colombia’s human rights program activities achieve planned results and
    what has been the impact?

•   Did USAID/Colombia’s reporting on its human rights program provide stakeholders
    with complete and accurate information on the progress of the program and the
    results achieved?

The audit scope and methodology are described in appendix I.




                                                                                     4
AUDIT FINDINGS
Did USAID/Colombia’s Human Rights Program Activities
Achieve Planned Results and What Has Been the Impact?
USAID/Colombia and its implementing partner achieved planned results for one of the
six main areas of the program (strengthening the Ministry of Interior and Justice) and
partially achieved planned results for the other five areas (strengthening the Office of
Human Rights in the National Police, strengthening the Early Warning System,
supporting development of the National Action Plan for human rights, assisting at-risk
communities, and strengthening civil society organizations). The following paragraphs
describe accomplishments in these areas and further actions that are needed to fully
achieve planned results and increase the effectiveness of USAID’s assistance.

•   USAID/Colombia strengthened the Early Warning System (EWS) by increasing the
    number of regional analysts who report on threats to human rights. The number of
    regional analysts increased from 13 in 2006 to 22 at the end of 2007. However, in
    the section beginning on page 6, we make recommendations regarding augmenting
    the membership of the Inter-institutional Committee for Early Warnings (CIAT),
    publishing risk reports, improving communication between the EWS and the CIAT,
    and establishing internal timelines for the preparation and submission of risk reports.

•   USAID/Colombia provided training to 17 Ministry of Interior and Justice (MOIJ)
    officials for human rights protection. This is important as MOIJ is charged with the
    protection of at-risk individuals.

•   The program helped 25 different government agencies come to an agreement on a
    draft National Action Plan for human rights (NAP) in 2007. This is a significant
    accomplishment as developing a NAP has been a goal of the Government of
    Colombia (GOC) since 1993. The next phase of this process was for the GOC and
    civil society to agree on a final draft in 2008, but this was not achieved, as discussed
    further in the section beginning on page 9 below.

•   USAID/Colombia, through MOIJ, provided six prevention training classes for leaders
    of displaced populations, labor unions, indigenous communities, afro-Colombian
    communities, and human rights organizations. These groups are thought to be at
    particular risk of being victims of human rights abuses. Also, the mission helped to
    develop local contingency plans in 10 at-risk areas. To develop the plans, local
    community leaders and local government officials worked together to identify human
    rights risks and required responses in their communities. The next step is for these
    plans to be discussed and implemented by the GOC at the national level. This
    phase has encountered difficulties and is further discussed on page 10 below.

•   USAID/Colombia provided technical assistance to 81 civil society organizations
    although this was achieved late due to difficulties in starting up the activity.

•   USAID/Colombia provided the Office of Human Rights in the National Police with
    support for developing strategic plans at the regional and national levels.


                                                                                          5
Figure 1. Map of Early Warning System Regions




Despite the progress and achievements made by the program thus far, some issues
need management attention. The following sections discuss needed actions to make
the EWS more independent, restart the process of developing a National Action Plan for
human rights, and revise the approach to human rights contingency planning.

The Early Warning System
Should Be More Independent
Summary: The EWS was created to provide independent analysis of threats to human rights
and provide early warnings so that human rights abuses could be prevented. However, its
independence has arguably been compromised by giving final decision-making authority for
issuing warnings to a committee composed of representatives from the military, the National
Police, the Administrative Department of Security (DAS), and the Presidential Program for
Human Rights. This occurred because the committee (known as the CIAT) initially operated
informally, and until its authority was formalized in 2007 it was not obvious how its decision-
making authority infringed on the independence of the EWS. There is evidence that CIAT’s
involvement in decision-making has reduced the number of early warnings issued.


                                                                                             6
EWS risk reports, which detail potential human rights abuses, are based on the work of a
network of analysts whose findings undergo several levels of review. Regional analysts
monitor risks and, when they determine that a human rights abuse is likely to occur, forward
a risk report to a national analyst in Bogota. The national analyst reviews this information
and may ask questions about the report or forward it to the director of the EWS who may
then send it to the National Ombudsman.

The EWS was formed to provide independent assessments of potential human rights
abuses and issue early warnings so that action can be taken to prevent rights abuses. The
EWS was placed within the Office of the National Ombudsman, a part of the independent
oversight and control branch of the Colombian State, to provide independence from the
armed forces and the rest of the GOC. The importance of independence is evidenced by
the contract with Management Sciences for Development, Inc. (MSD), which makes
reference to strengthening the independent oversight capacity and accountability of public
sector entities. Officials with MSD, USAID/Colombia, the GOC, and a consultant involved in
the original design of the EWS also confirm that the purpose of the EWS was to issue early
warnings of potential human rights abuses from an independent standpoint.

However, in 2002, the Office of the National Ombudsman stopped issuing warnings
independently and began to issue risk reports addressed to an ad hoc committee called
CIAT. This committee, composed of representatives from the Ministry of Defense, the Vice
President’s Office, the Ministry of Interior and Justice, the DAS, and a presidential counselor,
makes the final decision on whether to issue a warning. Although the stated purpose of
CIAT is to improve coordination with elements of the Government that need to take action in
response to warnings of potential human rights abuses, its actual function is to decide
whether or not an early warning will be issued. This arguably compromises the
independence of the EWS.

In addition, representatives of nongovernmental organizations (NGOs), USAID/Colombia,
MSD, and the GOC state that EWS and CIAT are not working well together. For example,
according to EWS officials, when EWS submits risk reports to CIAT through the Office of the
National Ombudsman, CIAT’s reply is often delayed for anywhere from two to eight months.
Communication between the EWS and CIAT is not good: Some EWS officials say they are
not aware of what CIAT has discussed or decided, and a consultant for CIAT acknowledged
this weakness. Disagreements sometimes arise when CIAT members minimize the
importance of risk reports issued by EWS, or when CIAT, relying on assurances from local
police or military officials, declines to issue warnings based on risk reports issued by EWS.
EWS analysts maintain that some citizens may be reluctant to share information on potential
human rights abuses with local police and military officials.

This problem occurred because CIAT originally met informally, and until USAID suggested
that CIAT’s authority be formalized, it was not obvious how CIAT’s decision-making authority
infringed on the independence of the EWS and the National Ombudsman. When CIAT’s
authority was formalized through a presidential decree in July 2007, its effects on the
authority of the National Ombudsman became more apparent. A USAID-financed
evaluation in 2008 also shed light on how CIAT’s position at the top of the chain of approval
for warnings adversely affected the independence of the EWS.

It is probably impossible to quantify the effect that this institutional arrangement has had on
issuance of early warnings, but there is some evidence that CIAT’s involvement has


                                                                                              7
reduced the number of warnings issued. Figure 2 illustrates the trend in EWS risk reports
and CIAT warnings from 2001 to 2007. While the scale and intensity of armed conflict fell
during this period, leading to a 47 percent decline in EWS risk reports, the number of
warnings fell even more (71 percent).

Figure 2. Risk Reports and Early Warnings Issued, 2001-2007


    100

    90

    80

    70

    60
                                                                        Risk reports
    50

    40
                  CIAT began
    30            operations

    20

    10
                                                                   Early warnings
     0
           2001        2002        2003        2004        2005        2006        2007



According to several sources, human rights abuses have at times occurred even though a
risk report has been forwarded by the EWS to CIAT. For example, the EWS sent a risk
report to CIAT on March 21, 2007. CIAT decided not to issue an early warning, based on
information it obtained from a mayor, but a community leader was then assassinated on
April 27, 2007. CIAT members say that at times a risk report is received from the EWS after
the human rights abuse has already taken place.

Two tangential issues have also limited the effectiveness of the EWS:

•   The EWS does not have internal timeframes establishing limits for the number of days
    that it may take to prepare and forward risk reports after information about a threat to
    human rights is received. The EWS director agrees that this weakness exists and
    should be addressed.

•   Risk reports and early warnings, while considered public documents, are not routinely
    published or placed on the Internet. Members of the public can request to see the
    reports, but NGO officials say that it takes months to get access to the reports. This lack
    of transparency makes it difficult for NGOs, the media, or members of the public to hold


                                                                                             8
   the GOC accountable for acting or not acting in response to risk reports and early
   warnings.

To correct these problems, we offer the following recommendations.

   Recommendation No. 1: We recommend that USAID/Colombia, in coordination
   with its implementing partner and the Government of Colombia, augment the
   membership of the Inter-institutional Committee for Early Warnings to include
   members from the independent oversight and control branch of the Colombian
   State, such as the National Ombudsman and the Inspector General, and charge
   them with oversight of the committee’s operations.

   Recommendation No. 2: We recommend that USAID/Colombia, in coordination
   with its implementing partner and the National Ombudsman, ensure that the
   Early Warning System makes risk reports available to the public on a timely basis
   by posting them on the Internet and/or publishing them while keeping reasonable
   confidentiality and security needs in mind.

   Recommendation No. 3: We recommend that USAID/Colombia, in coordination
   with its implementing partner, the Government of Colombia, and the National
   Ombudsman, implement procedures for more timely and effective two-way
   communication between the Inter-institutional Committee for Early Warnings and
   the Early Warning System.

   Recommendation No. 4: We recommend that USAID/Colombia, in coordination
   with its implementing partner and the National Ombudsman, ensure that the
   Early Warning System establishes internal timelines for preparing and forwarding
   risk reports.

The National Action Plan for
Human Rights Is Stalled
Summary: According to the contract signed with MSD, the GOC and civil society
organizations were to work toward a new National Action Plan (NAP) for human rights.
Currently there is very little interaction between the Government and civil society
organizations. This is because both sides often make disparaging comments about one
another and this has led to the main civil society groups refusing to discuss the matter until
the GOC provides guaranties of their safety. As a result, the NAP process is stalled.

According to the contract signed with MSD and the monitoring and evaluation plan, the
Government of Colombia (GOC) and civil society organizations were to consult with one
another to produce a National Action Plan for human rights (NAP). Colombia signed an
international agreement in 1993 in Vienna, Austria pledging to develop a National Action
Plan for human rights. The goal for FY 2008 was for the GOC and the civil society human
rights groups to discuss a draft and together agree on a final draft to be voted on.

This goal was not achieved. There has been very little interaction between the GOC and
civil society on this issue, and officials representing MSD, NGOs, USAID/Colombia, the
State Department, and the Office of the United Nations High Commissioner for Human
Rights (UN/OHCHR) think that this is unlikely to change. UN/OHCHR has ceased to work


                                                                                            9
on the NAP process and has been using its resources for education efforts instead.

This is because of accusations and counter-accusations between the GOC and human
rights groups. The GOC accuses some human rights groups of aiding left-wing terrorist
organizations. This makes members of human rights groups fear for their safety. On the
other hand, some human rights groups accuse the GOC of aiding or supporting paramilitary
groups. In this environment, some civil society organizations that make up the Coordination
Level2 refused to discuss the NAP until the GOC provided certain guaranties related to
safety. The GOC responded by saying it would bypass these groups and advance the NAP
process with those elements of civil society that wish to participate. This would not be
helpful since it would reduce the legitimacy of the NAP. The GOC recently indicated its
willingness to reopen discussions, but it has committed itself to providing the guaranties
requested. The NGO community response was unfavorable and no discussions appear
imminent.

As a result of this impasse, the NAP process is stalled, and without a NAP, the country does
not have a national policy regarding human rights.

     Recommendation No. 5: We recommend that USAID/Colombia exercise its
     influence with the Government of Colombia and civil society organizations to
     encourage them to resume work on the National Action Plan for human rights
     within the framework of the Coordination Level, while discouraging initiatives to
     narrow participation in the National Action Plan for human rights process.

Implementation of Human Rights
Contingency Plans Is Unlikely

Summary: According to the monitoring and evaluation plan, the program for attention to at-
risk communities should develop contingency plans at the local level. Once this was
accomplished, a committee at the national level was to meet to discuss and then implement
these contingency plans.          According to members of this committee, MSD, and
USAID/Colombia officials, the committee has rarely met and when it has met very little has
been accomplished. This is because the committee is made up of five members that all
have equal authority, and there is a lack of clarity on how they are to go about discussing
and then implementing these plans. While local authorities are able to use the contingency
plans to some degree, without implementation at the national level the impact of the plans
will be limited. This is because authority to undertake police and military actions in support
of the contingency plans is highly centralized. As a result, the $1.7 million spent in support
of this activity to date has not had the desired impact at the national level.

According to the monitoring and evaluation plan, communities at risk with regard to human
rights abuses were to develop contingency plans at the local level. Once this was
accomplished, a committee at the national level was to meet to discuss and then implement
these contingency plans. This was to fit within an overall goal of prevention with regard to
human rights abuses in at risk areas.

According to two members of this committee, the committee has rarely met. When it has

2
    The Coordination Level is the name of a group that includes the GOC and civil society
    organizations that meets to implement the NAP.


                                                                                           10
met, very little has been accomplished. MSD and USAID/Colombia officials have confirmed
this.

The national committee has accomplished little because it is made up of five members that
are all equal in authority, and a lack of clarity on how they are to go about discussing and
then implementing these plans. One member said that without a clear leader within the
committee, it was difficult to achieve consensus. In addition, the fact that the committee has
rarely met to discuss the contingency plans raises questions about the political will or priority
of this review. Two of the members have also indicated to USAID that they are not keen on
continuing to be part of this committee. USAID/Colombia officials agreed that the next step
for the contingency plans was unlikely to be achieved.

While the local authorities are able to use the current contingency plans to some degree,
without implementation at the national level, the impact is limited. This is because the
Colombian political system requires buy-in from the central government in order to have the
most impact as the actions required for communities at risk (police or military) will often need
national level approval. As a result, the $1.7 million spent in support of this activity to date
has not had the desired impact at the national level. Therefore we are recommending that
the remaining budget of this project ($396,943) set aside for this activity be reprogrammed to
activities that are more likely to produce significant results.

    Recommendation No. 6: We recommend that USAID/Colombia, in coordination
    with its implementing partner, reprogram the $396,943 for the activities of the
    assistance program for at-risk communities to other efforts that will produce more
    significant results.

Did USAID/Colombia’s reporting on its human rights program
provide stakeholders with complete and accurate information on
the progress of the program and the results achieved?

USAID/Colombia’s reporting on its human rights program provided stakeholders with
complete and accurate information for six of the nine reported results we selected for
review. However, three reported results were inaccurate.

USAID/Colombia’s main reporting to stakeholders for the period covered by the audit
was through the FY 2007 performance report for the operational plan (the FY 2008
report had not been submitted when the audit fieldwork was completed). The mission
provides separate reporting on performance indicators for the Andean Counter-drug
Initiative.

The following sections include findings on the need for (1) a performance management
plan (PMP), (2) the strengthening of data reporting, and (3) improved Training Results
and Information Network (TraiNet) reporting.

The Program Needs a Performance
Management Plan
Summary: Automated Directives System (ADS) 203.3.3 establishes a requirement for
USAID missions to develop performance management plans (PMPs). USAID/Colombia


                                                                                              11
has not developed a PMP for the human rights program, mainly because mission staff
thought that a monitoring and evaluation plan developed by MSD served much the same
purpose. A PMP is needed, however, to more formally define the program performance
indicators and explain why they were chosen. As a result of these issues, the
information on actual performance reported could not be relied on and did not provide a
reasonably complete picture of program activities and their progress.

ADS 203.3.3 states that operating units must prepare a complete PMP for each strategic
objective (SO) within 1 year of approval of the SO. ADS 200.6 defines a PMP as a tool
used by an operating unit and SO team to plan and manage the process of assessing
and reporting progress toward achieving an SO. According to ADS 203.3.3.1, the PMP
should include, among others, the following information:

•   A calendar of performance management tasks that an operating unit will conduct
    over the life of the SO; the calendar should include with it an illustrative timeline for
    when each task will be conducted.

•   The set of performance indicators (at the SO and intermediate results levels) that will
    be used to assess progress over the life of the SO, and may indicate subsets of
    indicators that will be used in certain years or phases of the SO.

•   Performance indicators should be disaggregated by gender to the maximum extent
    possible.

•   A justification of why each performance indicator was selected, including any
    milestone indicators.

•   Baseline values and targeted values for each SO and intermediate results level
    performance indicator included in the PMP.

•   The source of the data and the method for data collection. The description of data
    collection should be operationally specific enough to enable an objective observer to
    understand how the raw data are collected, analyzed for meaning, and reported.

•   Known data limitations of each performance indicator, including any data quality
    limitations and steps to be taken to address them.

•   The quality assessment procedures that will be used to verify and validate the
    measured values of actual performance of all the performance information.

USAID/Colombia did not develop a PMP because mission staff became accustomed to
relying on the monitoring and evaluation plan developed by MSD. MSD’s chief of party
acknowledged that a formal PMP would be helpful, and in fact he requested a PMP
when he began work on the human rights program in 2007. However, he was given the
monitoring and evaluation plan instead. Moreover, the monitoring and evaluation plan
developed by MSD did not contain all of the information required to be included in a
PMP. For instance, it did not include a calendar of performance management tasks, did
not provide a justification of why each performance indicator was selected, and did not
describe the quality assessment procedures that would be used to verify reported
information. Additionally, the monitoring and evaluation plan did not provide baseline



                                                                                          12
values or annual targets for each year of the program as required by ADS 203.3.3.1.

It is important to present complete and accurate information in the PMP, since the
information may be used to make decisions about the success of USAID’s programs and
the level of resources needed to implement the programs.

    Recommendation No. 7: We recommend that USAID/Colombia develop a
    performance management plan for the human rights program.

Data Reporting Needs to Be
Strengthened
ADS 203.3.5.1 requires that performance data meet five data quality standards: validity,
integrity, precision, reliability, and timeliness. Behind these standards is the idea that
data should accurately reflect the program’s performance and enable management to
make appropriate decisions based on the reported data.

For three of the nine reported results that we verified, the results reported by
USAID/Colombia did not accurately reflect actual performance:

•   In its FY 2007 results report, USAID/Colombia stated that the program supported
    training for 196 at-risk persons. However, according to MSD’s records for 2007, 406
    at-risk persons were actually trained.

•   USAID/Colombia reported that it helped 10 communities develop contingency plans
    in FY 2007, but this included 5 communities that developed plans without any
    assistance from USAID.

•   The mission overstated the number of individuals covered by a human rights
    protection program in FY 2007, because it reported the cumulative number of
    individuals since 2001 (4,740) instead of the number for FY 2007 (121).

These inaccuracies were caused by reliance on the contractor to report accurate results,
without any verification by mission staff. While USAID/Colombia staff performed site
visits and data quality assessments were done by the program office, reported results
were not verified by examining supporting documentation. USAID/Colombia staff
indicated that the mission will hire an additional staff person who will be responsible for
verifying reported results.

When data are not verified, a risk exists that conclusions or decisions about the program
will be based on inaccurate information.

    Recommendation No. 8: We recommend that USAID/Colombia, in conjunction
    with its implementing partner, develop and implement a system to reasonably
    ensure that reported information is accurate.

Mission Should Improve
TraiNet Reporting



                                                                                        13
Summary: USAID policy states that missions (or their implementers) must enter certain
data regarding in-country training programs into the Agency’s Training Results and
Information Network (TraiNet). However, reporting for FY 2007 was incomplete and
according to USAID officials, this will likely be the case for FY 2008. In order to have the
required information, the contractor must fill out physical forms regarding training before
USAID/Colombia enters the data into the system. However, MSD did not always fill out
these forms correctly. Once information is found to be lacking, USAID/Colombia has to
ask the contractor and re-enter the data again. As a result, the process is delayed and
the information has been incomplete.

ADS 253.3.3 states that missions or their implementers must enter selected data on in-
country training programs into the Training Results and Information Network (TraiNet) for
training under their respective strategic objectives or activities. The data to be entered
are:

•   Subject area of training

•   Start and end date

•   Total trainees per training, with gender breakdown

•   Total cost of training for each program (broken down by instruction, participant, and
    travel)

ADS 253.3.3 further states that missions or their implementers are required to enter data
for any in-country training lasting three consecutive class days, or 15 hours scheduled
intermittently. However, missions may wish to report shorter duration in-country training
events. In addition, ADS 253.3.1.c specifies that missions must design and carry out
participant training activities with the fullest possible application of cost control and cost-
sharing practices.

USAID/Colombia is entering the required data, but it is incomplete. Those in charge of
entering the information acknowledged that this was the case for FY 2007. They also
indicated that this would likely be the case for FY 2008 as well.

In order to have the required information, the contractor is to fill out physical forms
regarding training before USAID/Colombia enters the data into the system. However,
MSD did not always fill out the forms correctly. Unfortunately, the system does not allow
for one to enter only partial information regarding a training course while one is awaiting
further information. When information is found to be lacking, USAID/Colombia has to
ask the contractor for it. The data entry work done up until then will have to be re-
entered once the full or corrected information is provided. MSD acknowledged that
errors were made. However, because MSD staff did not have access to the system, it
was difficult for them to appreciate the reporting issues in detail or how to correct them.
According to USAID/Colombia officials, other USAID missions provide USAID
contractors with limited access to TraiNet so they can see what the system requires
firsthand.

As a result, the process of entering the training data required is delayed. This means
the information in USAID’s training database is incomplete, and any agency reporting on


                                                                                            14
training to its stakeholders is also incomplete. Moreover, this important tool could not be
used for planning and management purposes.

   Recommendation 9: We recommend that USAID/Colombia provide limited
   access to the Agency’s Training Results and Information Network (TraiNet) for
   contractors who report on training so that the initial data entry can be done by
   them before being reviewed by the appropriate USAID/Colombia staff.




                                                                                        15
EVALUATION OF
MANAGEMENT COMMENTS
In response to our draft report, USAID/Colombia agreed to implement all nine
recommendations and has developed specific plans to implement them. We agree with
the mission’s planned activities and, therefore management decisions have been
reached for all of the recommendations.

Mission comments in their entirety are presented in appendix II.




                                                                              16
                                                                             APPENDIX I


SCOPE AND METHODOLOGY
Scope
RIG/San Salvador conducted this performance audit in accordance with generally
accepted Government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis
for our findings and conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based
on our audit objectives.        The purpose of the audit was to determine if (1)
USAID/Colombia’s human rights program activities achieved planned results and what
was the impact and (2) whether reporting provided stakeholders with complete and
accurate information on the progress and results achieved. Audit fieldwork was
conducted at USAID/Colombia from November 4, through November 21, 2008. The audit
covered the period from October 1, 2006 through September 30, 2008.

In planning and performing the audit, we assessed management controls related to
management review of performance measures and indicators. Specifically, we obtained
an understanding and evaluated (1) the fiscal year (FY) 2007 operational plan, (2) fiscal
year 2008 operational plan (phase 1), (3) the monitoring and evaluation plan prepared
by Management Sciences for Development (MSD), (4) the mission’s Federal Managers’
Financial Integrity Act of 1982 assessment, (5) the oversight performed by cognizant
technical officers, (6) performance measures, and (7) data quality assessments. We also
conducted interviews with key USAID/Colombia personnel, implementing partners,
Colombian government officials, and beneficiaries.        We conducted the audit at
USAID/Colombia, located in Bogota, Colombia and visited implementing partners and
beneficiaries in Bogota, Monteria, and Medellin.

We reviewed 6 main activity areas from a total of 40. These areas were selected
judgmentally from the budget by activity area, and the associated indicators for FYs
2007 and 2008 from the monitoring and evaluation plan were reviewed to determine
results achieved.   To verify the accuracy of the program results reported by
USAID/Colombia, we selected 9 of 21 reported results for FY 2007.

Methodology
To answer the audit objectives, we met with personnel from USAID/Colombia, the
implementing partners MSD and the Office of the High Commissioner for Human Rights,
Colombian Government officials, and beneficiaries. We reviewed documentation
provided by MSD and USAID/Colombia such as operational plans, the monitoring and
evaluation plan, results achieved, and the contract and subsequent modifications. We
also reviewed progress reports and site visit reports.

In order to assess whether results were achieved, we focused on six main activity areas
and the associated indicators for FYs 2007 and 2008. We conducted interviews with
mission personnel, implementing partners, Government of Colombia officials, and
beneficiaries. When possible, we reviewed partner documentation such as training lists
and products such as contingency plans.


                                                                                       17
                                                                          APPENDIX I


In order to determine whether accurate and complete information was reported, we
interviewed mission and implementing partner personnel. We reviewed documentation
to determine how results were collected for the nine selected FY 2007 indicators
(reported in the phase one 2008 operational plan and Andean Counter-drug Initiative
indicators). These indicators were selected judgmentally with some input from the
mission. The phase two 2008 operational plan had yet to be reported to Washington,
DC, at the end of fieldwork. We validated these reported results by tracing mission-
reported results back to documented results and records (e.g., progress reports,
participant training lists, draft contingency plans) at the offices of the implementing
partner.

We also determined the level of monitoring done by the cognizant technical officer and
USAID/Colombia as a whole by reviewing site visit reports, data quality assessments,
and interviewing officials of USAID/Colombia, and the implementing partner.

We reviewed applicable laws and regulations and USAID policies and procedures
pertaining to USAID/Colombia’s human rights program, including the mission’s 2007
Federal Managers’ Financial Integrity Act of 1982 assessment, contracts and
modifications, and Automated Directives System chapters 203 and 253.




                                                                                    18
                                                                                          APPENDIX II


MANAGEMENT COMMENTS
The following table was provided by USAID/Colombia as its official comments on our
draft audit report:

   RECOMMENDATION                          PLAN FOR CORRECTIVE ACTION                       DEADLINE
Recommendation No.1:            We agree with this recommendation. However,                June 30,
We recommend that               lobbying by USAID and its implementing partner will        2009
USAID/Colombia,            in   not guarantee compliance since final decisions
coordination with its           depend on the Ombudsman and GOC. USAID and
implementing         partner    MSD will, however, carry out all necessary actions to
and the Government of           fulfill this recommendation.
Colombia, augment the
membership          of   the    Regarding participation of the National Ombudsman
Inter-institutional             through the EWS in CIAT meetings, MIJ Regulatory
Committee for Early             Decree No. 2862 of 2007, clause 2, article 5 on the
Warnings to include             committee’s meetings establishes: “The Ombudsman
members         from     the    or his deputy will permanently participate”. The CIAT
independent oversight           has notified EWS’s director for each of the sessions
and control branch of           since August, 2008. However, the EWS has only
the Colombian State,            occasionally attended them.
such as the National
Ombudsman and the               To address this issue, we have included activities in
Inspector General, and          both the CIAT and EWS operational plans for 2009 for
charge       them       with    coordination between the two entities, including
oversight         of     the    appointing representatives to ensure presence of the
committee’s operations.         EWS in CIAT sessions.

                                In meetings between USAID and the Ombudsman (26
                                January 2009), MSD and the Ministry of Interior and
                                Justice (3 February 2009), and with the Minister of
                                Interior and Ombudsman (6 February 2009), all
                                participants indicated their agreement with EWS
                                participation in CIAT sessions. In addition, all
                                participants agreed to establish a working group to
                                review CIAT and EWS systems and procedures with
                                the objective of improving communication,
                                participation and coordination. The Ombudsman
                                agreed to send a high-level representative to every
                                CIAT meeting.

                                Regarding participation of the Inspector General’s
                                Office, USAID with technical assistance of MSD, will
                                discuss with the CIAT the possibility of inviting the
                                IGO to its meetings and that the IGO participate
                                through a representative from the Preventive
                                Inspector General’s Office in order to monitor
                                performance of authorities at regional and local levels
                                regarding risk situations analyzed within the
                                framework of the committee and recommendations
                                stemming from it.




                                                                                                      19
                                                                                            APPENDIX II

Recommendation No. 2:           We agree with this recommendation. We have agreed
We recommend that               on and included the following activities in the
USAID/Colombia,        in       operational plans of both the EWS and CIAT:
coordination with its
implementing     partner        1. Determine, jointly with the EWS and CIAT, the             1. April 30,
and      the    National           types of information they handle and their degree of         2009
Ombudsman , ensure                 confidentiality.
that the Early Warning          2. Prepare a template for an abridged version for            2. June 30,
System makes risk                  public dissemination of risk reports and early               2009
reports available to the           warnings.
public on a timely basis        3. Work with EWS and CIAT to develop a color-coded           3. August
by posting them on the             system, based on the level of risk, which the CIAT           31, 2009
internet          and/or           will use to categorize all risk reports and inform its
publishing them. All of            response.
this in order to enable
monitoring          and         USAID will also work with EWS and CIAT to develop a
oversight     processes         system for disseminating risk reports to as wide a
regarding performance           public audience as possible while respecting
of local authorities in         confidentiality and security needs.
terms of prevention and
protection.                     In meetings between USAID and the Ombudsman (26
                                January 2009) and MSD and the Ministry of Interior
                                and Justice (3 February 2009) both EWS and MIJ
                                officials committed to studying the possibility of and
                                means for public dissemination of risk reports, and
                                added that they are considering issuing alerts for all
                                risk reports of the EWS and involving local,
                                departmental authorities and a wider range of
                                governmental agencies in CIAT efforts.

Recommendation No. 3:           We agree with this recommendation. USAID will                March 31,
We recommend that               provide technical assistance to EWS and CIAT to              2009
USAID/Colombia,            in   establish an implement a plan for regular meetings at
coordination with its           the national and departmental level.
implementing partner,
the     Government        of    In meetings between USAID and the Ombudsman (26
Colombia        and      the    January 2009), MSD and the Ministry of Interior and
National Ombudsman,             Justice (3 February 2009) and a presentation for the
implement procedures            Minister of Interior and Ombudsman (6 February
for more timely and             2009) the necessity for more effective communication
effective         two-way       was emphasized to and recognized by both the EWS
communication between           and CIAT.
the      Inter-institutional
Committee for Early
Warnings and the Early
Warning System.

Recommendation No 4:            We agree with this recommendation. We have                   June 30,
We recommend that               agreed on and included in the EWS’s operative plan,          2009
USAID/Colombia,     in          within the framework of consultancy for conceptual
coordination with its           and methodological adjustment, work on redefining
implementing   partner          times and procedures.
and the Government of
Colombia, ensure that           In a meeting between USAID and the Ombudsman
the    Early  Warning           (26 January 2009), the importance of establishing



                                                                                                         20
                                                                                             APPENDIX II

System        establishes    internal timeframes was emphasized and recognized
internal timelines for       by the EWS.
preparing             and
forwarding risk reports.

Recommendation No 5:         We agree with this recommendation. In this regard,               June 30,
We recommend that            we have written into the MSD work plan to fund                   2009
USAID/Colombia               National Action Plan activities if, and only if, this is
exercise its influence       done within the framework of the coordination level
with the Government of       (Instancia de Coordinacion).
Colombia     and     civil
society organizations to     To ensure progress on this subject, USAID and its
encourage them         to    implementing partner proposes the following activities:
resume work on the
National Action Plan for     i)     A meeting between USAID and the Vice-
Human Rights within                 president’s Office in order to inform him of
the framework of the                concerns regarding stalled talks;
coordination level, while    ii)    A workshop between civil society organizations
discouraging initiatives            and the GOC to discuss options for advancing
to narrow participation             the development of the National Action Plan; and
in the National Action       iii)   A meeting between the US Ambassador and the
Plan for Human Rights               President of Colombia to highlight the importance
process.                            of human rights issues for the bilateral agenda.

                             However, it is worth pointing out that resuming work
                             on the National Action Plan depends on the political
                             will of the GOC and civil society participants. Neither
                             USAID nor MSD can ensure that the intended
                             consensus in this area will be achieved.

                             In a meeting at Accion Social that coordinates
                             international donors with GOC agencies on 6
                             February 2009, and attended by a representative of
                             the Presidential Human Rights Program, USAID
                             Human Rights Program stated its intention to continue
                             working on the National Action Plan for Human Rights
                             through the coordinating agency (Instancia de
                             Coordinacion) to ensure broad participation.

Recommendation No. 6:        We agree with this recommendation. USAID will work               December
We recommend that            the GOC to develop an Inter-institutional Prevention             15, 2009
USAID/Colombia,         in   Strategy that will guide coordinate GOC prevention
coordination with its        efforts.
implementing partner,
reprogram the $397,000       The USAID Human Rights Program will reprogram its
dollars for the activities   Communities at Risk activities to prevention activities
of     the    Assistance     in accordance with the new strategy.
Program for At-risk
Communities to other         The new Prevention Strategy will incorporate lessons
efforts that will produce    learned and best practices from the Communities at
more significant results.    Risk Program but will be more comprehensive and
                             better coordinated.

                             It will prioritize the following: (i) establishing preventive
                             security mechanisms among targeted populations, (ii)



                                                                                                         21
                                                                                       APPENDIX II

                            defining concrete mechanisms and measures to
                            protect threatened populations, (iii) conducting
                            analysis, diagnostics and risk scenarios in focus
                            areas, (iv) defining contingency plans, and (v) defining
                            prevention and protection plans.

                            This strategy will be focused on the departments with
                            the highest levels of conflict based on a series of
                            publicly available statistics, such as numbers of
                            displacements and homicides.

                            USAID Human Rights Program will conduct
                            workshops on prevention with various GOC agencies
                            between 11-13 February 2009 and has a meeting
                            scheduled with the Vice-Minister of Interior to discuss
                            this subject on 20 February 2009.

Recommendation No.          We agree with this recommendation. USAID will work          May 31,
7: We recommend that        with MSD to expand the existing Monitoring and              2009
USAID/Colombia              Evaluation Plan to ensure that it includes all required
develop a Performance       information in accordance with the ADS guidance on
Management Plan for         Performance Management Plans.
the   Human     Rights
Program.

Recommendation No. 8:       We agree with this recommendation. USAID will               April 30,
We recommend that           design a quarterly information verification system          2009.
USAID/Colombia,        in   within site visits and verification of data against
conjunction with its        original source documents.
implementing partner,
develop and implement
a system to reasonably
ensure that reported
information is accurate.

Recommendation No. 9:       We agree with this recommendation. USAID/Colombia           April 30,
We recommend that           confirmed with the TraiNet coordinators at EGAT/ED          2009
USAID/Colombia              that MSD is allowed to report its training data directly
provide limited access      into the web based TraiNet system.
to the Agency’s Training
Results and Information     USAID/Colombia has provided MSD with the contact
Network (TraiNet) for       information for the TraiNet/VCS Help Desk at
contractors who report      USAID/EGAT/ED. They will request an access
on training so that the     password and start entering their own TraiNet data
initial data entry can be   directly.
done by them before
being reviewed by the
appropriate
USAID/Colombia staff.




                                                                                                    22
U.S. Agency for International Development
       Office of Inspector General
       1300 Pennsylvania Ave., NW
         Washington, DC 20523
           Tel: (202) 712-1150
           Fax: (202) 216-3047
           www.usaid.gov/oig
